No. _________________

In the Supreme Court of the United States
October Term, 2020

ANASTACIO CASTRUITA-ESCOBEDO, PETITIONER,
V.

UNITED STATES OF AMERICA
PETITION FOR WRIT OF CERTIORARI
TO THE
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

Petitioner Anastacio Castruita-Escobedo, by and through his undersigned
attorney, respectfully moves this Honorable Court for leave to proceed in forma
pauperis and for leave to file the attached Petition for Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit without prepayment of
fees. See Sup. Ct. R. 39.1; 18 U.S.C. § 3006A(d)(7). Petitioner was represented
by appointed counsel under the Criminal Justice Act of 1964, as amended, in
the district court and the court of appeals. Leave to proceed in forma pauperis
was never sought in any other court.

Respectfully submitted.

s/ Judy Fulmer Madewell
JUDY FULMER MADEWELL
First Assistant Federal Public Defender
Western District of Texas
727 E. César E. Chávez Blvd., B-207
San Antonio, Texas 78206-1205
(210) 472-6700
(210) 472-4454 (Fax)
Counsel of Record for Petitioner

DATED: November 23, 2020

